Certificate of Service

Jon Myers

v.

Sondra Myers and others

I do solemnly swear under pain and penalties of perjury that I have served three copies of
my Petition for Rehearing of the Writ of Certiorari 20-344 on the Motion to Define and Stop
an evil case of Emotional Abuse and for Relief thereof on Michael R. Perry, Esq. of Hunton,
Andrews and Kurth of 60 State Street, Suite 2400 Boston MA 02109 via Priority mail on
December 11, 2020

Respectfully Submitted,

J<

December 11, 2020

